No. 20-1505
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ZAINAB MERCHANT, ET AL., PETITIONERS
v.
ALEJANDRO N. MAYORKAS,
SECRETARY OF HOMELAND SECURITY, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES, via e-mail and first-class mail, postage prepaid, this
25th day of May 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 2,892 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
May 25, 2021

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 25, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-1505
MERCHANT, ZAINAB, ET AL.
ALEJANDRO N. MAYORKAS, SECRETARY OF
HOMELAND SECURITY, ET AL.

ESHA BHANDARI
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
212-549-2500
EBHANDARI@ACLU.ORG
DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005
212-549-2611
DCOLE@ACLU.ORG
BRIAN R. FRAZELLE
THE CONSTITUTIONAL ACCOUNTABILITY
CENTER
1200 18TH STREET, NW
SUITE 501
WASHINGTON, DC 20036
202-296-6889
BRIAN@THEUSCONSTITUTION.ORG

RAFAEL REYNERI
COVINGTON & BURLING LLP
ONE CITYCENTER
850 TENTH STREET, NW
WASHINGTON, DC 20001-4956
202-662-5787
RREYNERI@COV.COM
JESSIE J. ROSSMAN
AMERICIAN CIVIL LIBERTIES UNION
FOUNDATION OF MA
211 CONGRESS STREET
3RD FLOOR
BOSTON, MA 02110
ADAM SCHWARTZ
ELECTRONIC FRONTIER FOUNDATION
815 EDDY STREET
SAN FRANCISCO, CA 94109

